                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




         funds on an NSF CAREER award.' Specifically, the complainant suggested that the principal
         investigator2(PI) had re-budgeted grant funds in order to travel to Arizona to visit family


         O~G   contacted the institution3 to request all financial documentation on the NSF grant. The
         infomation was received 11 February 2004. After reviewing the documentation submitted to
         this office and the program jacket (which contains the original approved budget) there is no
         evidence that the PI misappropriated NSF grant funds. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
